Ti

@OQCKLE

L ega l Bri e fs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-

K.G.S., INDIVIDUALLY AND AS GUARDIAN AND NEXT
FRIEND OF BABY DOE, A MINOR CHILD,
Petitioner,

v.
FACEBOOK, INC.,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of January, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
Andrew P. Campbell Ruthanne M. Deutsch
Yawanna McDonald Counsel of Record
CAMPBELL PARTNERS Hyland Hunt
505 Twentieth St. North DEUTSCH HUNT PLLC
Suite 1600 300 New Jersey Ave. N.W.
Birmingham, AL 35203 Suite 900
(205) 224-0750 Washington, DC 20001
(202) 868-6915

Subscribed and sworn to before me this 17th day of January, 2020.

rdeutsch@deutschhunt.com

Counsel for Petitioner

Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska

My Commission Expires Nov 24, 2020

 

» EC Cll Qudeow-h, Ble

Notary Public

Affiant 38995
SERVICE LIST

Paven Malhotra

KEKER, VAN NEST, & PETERS LLP
633 Battery Street

San Francisco, CA 94111

(415) 391-5400

pmalhotra@keker.com
